                                        NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

 Case Number: A10080066                                                     Page 1 of 1


         We received an allegation of plagiarism in an article citing NSF support, co-
         authored by an NSF-funded PI. 1 The University concluded the PI was responsible
         for the plagiarism in the article when he incorporated material prepared and
         plagiarized by a consultant and graduate student upon whom the PI relied. We
         agreed with the university that the PI plagiarized and recommended NSF make a
         finding of research misconduct and take two other actions to protect the
         government’s interests. NSF concurred. The PI appealed NSF’s decision, and NSF
         denied the appeal. Accordingly, this case is closed. This memorandum, NSF’s
         Director’s appeal decision, NSF’s original adjudication, and our Report of
         Investigation constitute the closeout for this case.




                                                                This page administratively
                                                                corrected 1/23/2013


              1




NSF OIG Form 2 (11/02)
                           n    NATIONAL SCIENCE FOUNDATION
                                                                     n
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230

                                        !=rD
                                        'cu 2 ].i 2Ul2



     OFFICE OF THE
       DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Decision on Appeal of Research Misconduct Determination


Dear Dr.

On December 7, 2011, Dr. Wanda Ward, Senior Advisor to the Director, issued a Notice of
Research Misconduct Determination to you. In this Notice, NSF: (!)required, until December 1,
2012, that you submit certifications in connection with any proposal or report you submit to
NSF; and (2) mandated that you complete an ethics training course by December 1, 2012. On or
about January 6, 2012, you filed a timely appeal ofNSF's decision. This letter constitutes NSF's
decision on your appeal.

In your appeal, you assert that you did not engage in research misconduct. You allege that your
consultant was responsible for including plagiarized text in the paper. Thus, to the extent that
any research misconduct occurred, it was the consultant - and not you _: who committed such
misconduct. You contend that you should not be held responsible for the consultant's
misconduct, as the consultant had extensive experience in preparing and editing reports. Lastly,
you suggest that the actions taken by the University ··       ··were sufficient to address any
misconduct that occurred, and that any additional actions taken by NSF would be punitive.

NSF has determined your appeal should be denied. As co-author of the paper, you had the
responsibility to ensure that appropriate credit was given to the authors of all source materials
used in the paper. Although we recognize that the consultant physically copied the text from the
manuscript used in connection With this paper, you, as co-author, were responsible for the
content of the paper. This is particularly true in light of the fact that the author ofthe
manuscript specifically requested that you credit hitn for any of his material that was used in the
paper. You concede that you failed to check the paper for missing citations prior to submitting it
to NSF. Your failure to do so was reckless.
                            0
                                                                                             Page2
Moreover, the actions taken against you by NSF are commensurate with the misconduct in which
you engaged. In arriving at its decision, NSF considered (the action previously taken by the
University as a mitigating factor. We believe; however, that the additional actions taken against
you are necessary to adequately address the misconduct that occurred.

This is NSF's final administrative action in this case. If you have any questions aboutthe
foregoing, please call Lawrence Rudolph, General Counsel, at (703) 292~8060. .           ,



                                                    Sincerely,

                                                    r~r~~
                                                    Subra Suresh
                                                    Director




                                                                          ['·




                                                                                                      I .




                                                                                                     .J




        '   ·'
~-




                                      NATIONAL SCIENCE FOUNDATION
                                                                           n
                                           4201 WILSON BOULEVARD
                                          ARLINGTON, VIRGINIA 22230



                                             DEC   a. 7 2011
           OFFICE OF THE
             DIRECTOR




     CERTIFIED MAIL --RETURN RECEIPT REQUESTED                                                             \




            ·Re:     N~iice ofResearch Misconduct Determination

     Dear Dr. .

            You co-authored a pape! entitled, ·
     I            _    -.                                                ' This paper dtedsupport
     from an NSF grant awarded to J                   ··· ' ·     · for which you served as the
     Principal Investigator. As documented in the attached Investigative Report prepared by NSF's
     Office of Inspector General ("OIG"), this paper contained plagiarized material.


     Research Misconduct and Proposed Sanctions
                                                          l                            .
          · Under NSF's regulations, "research misconquct" is defined as "fabrication, falsification,
     or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
     defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words ·
     without giving appropriate credit." 45 CPR§ 689.1(a)(3). A finding of research misconduct
     requires that:

            (1) There be a significant departure from ;accepted practices of the relevant research
                community; and
            (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                                                      '
            (3) The allegation be proven by a preponder~ce of evidence.

     45 CPR§ 689.2(c).

              Your proposal contained verbatim and paraphrased text copied from multiple source
     documents. By authoring a paper that copied the ideas or words of another without adequate
     attribution, as described in theOIG Investigative Report, you misrepresented someone else's
                                                                                                        ;t
                                                                                              Page2
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the definition of "research misconduct" set forth in NSF's ·regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departUre from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct againstyou.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
                     a
taken in response to finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF progiams. '45 CFR § 6893(a)(3).                 ·

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness ofthemisconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern of
misconduct, and had no impact on the research record, as well as other ·relevant circumstances.
45 CFR § 689.3(b).

        I also considered the arguments you raised in your September 6, 2011, letter to Dr. Cora
Marrett, NSF's Deputy Director. You asserted that you did not commit research misconduct
because you took adequate steps to ensure that the material included in your paper was not
plagiarized. Ill addition, you believed that you should be absolved from a fmding of research
misconduct because the co-author of the paper was notfoimd to have coirfrnitted plagiarism. ·

        I am not persuaded by either argurrient. As the co.:.author of a paper, you have the ' ·'
responsibility to ensure that the paper does not contain plagiarized material. Although we
recognize that you took some steps towards this objective, it is undisputed that plagiarized
material was included in your paper. Therefore, although we do not believe that your misconduct
was committed knowingly or intentionally, you did not fulfill your responsibility to ensure the
material included in your paper was cited properly., Moreover, your.co;-author's University
completed an inquiry and determined that he was not involved in the drafting of the sectiqns that
were identified to contain plagiarized materiaL Yotir University, Ori the other·hand, 'conducted an
investigation and found that you were responsible for the plagiarized material contained in the
paper. Lastly, to the extent there is any inconsistency between the findings of your respective

                                                    '•''-



                                                      . 6
'·1{.

                                                                                                     Page3
        institutions, this inconsistency does not change the fact that you did not discharge your obligation
        to verifY that your paper did not contain plagiarized material. Therefore, I believe that the
        finding of research misconduct against you is appropriate.

               After assessing the relevant facts and circumstances of this case, I am taking the
        following actions against you:

                (1) Until December 1, 2012, you must provide certifications to the OIG that any proposal
                    or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
                    fabricateq material; and

                (2) By December 1, 2012, you must attend a training course on research ethics, including
                    a discussion on citation practices, and provide a certificate of attendance to the OIG
                    that you have completed such a course.

               The certifications and certificate of attendance should be submitted in writing to OIG,
        Associate Inspector General for Investigations, 4201 ·Wilson Boulevard, Arlington, Virginia
        22230.


        Procedures Governing Appeals
                 Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
          ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
        . should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
          Arlington, Virginia 22230. If we do not receive your appeal within the 3'0-day period, this
          decision will become final.

               For your information, we are attaching a copy of the applicable regulations. If you have
        any questions about the foregoing, please call·    '      , Assistant General Counsel, at (703)
        292-


                                                              Sincerely,


                                                           ~k~
                                                              Wanda Ward
                                                              Senior, Advisor to the Director


        Enclosures
           Investigative Report
        - 45 C.F.R. Part 689
                           ,()
     CoNFIDENTIAL                                                              CONFIDENTIAL




             National Science Foundation
              Office of Inspector General




_)




                       Confidential
                  Report of lnv~stigation
                c·ase Number A-10080066



              This Ccmfidel1tiaJ Report of lnvestigatio~ is provid«hd to yo~
              .       . .   . .·FOR OFFICIAL lJSE ONLY.
       Ittont~ins ·pr~tected personal infor1llation, the,•unauthorized disdosure.·of which·.·
       mayresultin persobal criminal liability under the Privacy Att, 5U.S.C. § '5£)2a.
     . This report may be further disclosed vvithiri NSF only . to individuals. whornust
       have knowledge of its contents to facilitate:NSF's assessment a!ld resolution of
       this matt~r. This report may be disclosed outside NSF only under the Ji'reedoni of
     Inforinatio!l and Privacy ACts,' 5,U.S.C. §§ 5:52 & 552~. Please take appropriate'
      precautions handling this confidential report' of investigation.        . .

                                                                          NSF OIG Form 22b (12/10)
                                                                                     !.   • r
                                   Confidential


                             Executive Summary

Allegation:    Plagiarism.

University Investigation and Action:
              OIG received an allegation that the Subject plagiarized material in
              an article citing NSF support... We l~arned the Sv.bject's home
              University was in the process of investigating the same allegation.

               The University made a finding that the Subject committed
               plagiarism by copying approximately 103 lines of text from 8)
               sources. The University temporarily rescinded the Subject's Chair
               professorship and denied' the Subject his summer salary (in the
               form of two-ninths of his base salary that was to be paid during
               summer sessions) for at least 2 years.

OIG Assessment: OIG conducted an independent investigation and identified an
                additional 58 lines ~f c:opied material from 5 sources. ..··
            • The Act: The Subject plagiarized approximately 161 total lines
                of text copied from 13 sources.
            • Intent: The Subject acted recklessly.
            • Standard of Proof: A preponderance of evidence standard ·
                supports the conclusion that the $ubject committed plagiarism.
            • Significant Departure: The Subject's plagiarism represents a
                significant departure from. accepted practices.
            • Patt~rn: No pattern' of plagiarism was detected. \

OIG Recommends NSF:    .               . . .      .
           • Make a finding of researchmisconduct against' the Subject.
           • Send the Subject a letter of reprimand.
           • Require certification of attending a responsible conduct of
             research class.that includes citation practices within 1 year.
           • Require 1 year of certific;ations.




                                                                                 1
                                                                                            n
 ..   ~    .j
.;·       ·~~ ~~




                                                                Confidential


                                                         University Actions
                                                              Investigation
                          We received the allegation of plagiarism and learned the Universityl had
                   already conducted an Inquiry and begun an Investigation2 into an allegation that
                   the Subject3 plagiarized into a paper (the paper)4 provided to NSF and an
                   association (the Association) 5; the paper ,cites support from the Subject's NSF
                   grant.6 The University, consistent with, its policies, assigned a Committee to
                   conduct an Investigation and produce an Investigation report (the report). 7
                          As detailed in its report, the Committee reviewed the material pertinent to
                   the initial allegation that the- Subject copied four passages from' a preprint (the
                   preprint)B into his paper verbatim and without attribution.9 The Committee also
                   reviewed additional material identified via' a plagiarism software evaluation of the
                   Subject's paper.1o The Committee apphed the following research misconduct
                   criteria. The act: (i) must meet the definition of plagiarism; (ii) must be a
                   significant departure from accepted practices of the relevant community; (iii) must
                   be committed with culpable intent; and the allegation be supported by a
                   preponderance of evidence.
                            Regarding (i) above, the Committee observed the text in the Subject's paper
                    was identical to the text in the four passages of the preprint, but lacked appropriate
                   ·attribution. The Subject acknowledged the author of the preprint sent him a
                    preprint of his articles. In one of the email exchanges between the two,. the author
                    tells the Subject he may quote the material "with appropriate citation of my name"
                    because he planned to use the material in a,book.u The Subject said that email did

                       1 [redacted].
                       2  The University did not notifY us of its investigation as required 45 CFR §689.4(b)(2), but
                   planned to· do so at the conclusion of its adjudication.-
                       3 [redacted], a Professor at the University.
                       4 Tab 1: [redacted] (the Subject) and [redacted].        The Subject listed his affiliation as the
                   University, while his co-author is affiliated with [red~cted].
                       The original allegation was against the Subject and his co-author. [redacted] conducted an
                   Inquiry and concluded an Investigation was not warranted as the Subject, not the co-PI,. was
                   responsible for the material with the copied text. We~ concur.
                       We have denoted copied text in Tab 1 via underlining in three ways: (1) with letters (A-D)
                   corresponding to the University's identification of the text copied from the four passages of the
                   preprint; (2) with numbers (1-7) corresponding to_ the University's identification· of copied text
                   detected with its plagiarism software; and (3) with double letters (AA-EE), indicating the text
                   identified by OIG.                                                                                       "
                       5 [redacted].
                       6 [redacted] was awarded to [redacted] with the Subject as the PI.
                       7 Tab 2: the University's Investigative report.
                       8 Two preprints by [redacted] (the author) were provided to the Subject via email. These two

                   preprints were combined into [redacted] published by [redacted] as part of the [redacted] working
                   papers.
                       9 Tab 2, Attachment 1.
                       1o Tab 2, Attachment 6.
                       11 Tab 2, report, p. 4.




                                                                                                                       2
                         0
                                              Confidential


not relate to the preprints, but to some specific data that were sent in an earlier
email and that are not part of the material allegedly plagiarized. Likewise, the text
the Committee subsequently identified by, the plagiarism software was not
appropriately cited to its sources. Therefore, the Committee concluded the Subject's
act met the definition of plagiarism.
       Regarding (ii), the Committee stated that "none of [them] are aware of any
occasions in [their] disciplines where using verbat1m passages of such length
without indicating they are direct' quotes~ either with quotation marks or with
indentation and including citations of the sources is an; accepted practice." 12 It
continued by stating the Subject, "also acknowledged that this was not an accepted
practice in his specific area of scholarship." 13 Th~ Committee considered whether
the article's limited distribution mitigated the departure-the article was provided
to the Subject's NSF program offic~r as an 'activity file' and to the association for
the purpose of distributing it to the Deans of business schools-and concluded "even
that sort of submission would require appropriate acknowledgment of others' work."
Thus, the Committee concluded .the Subject's actions. represe!lted a significant
departure from accepted practices within his res~arch community.
                                                                            I
       With regard to evaluating the Subject's state of mind, (iii), the. Committee
                                          \

found no evidence the Subject acted knowingly or willfully, but could not categorize
the plagiarism as "ordinary error" either. The Spbject acknowledged the references
were missing from his paper that was posted to the association, but said the final
version did not include the sections with the copied material (the Subject said the
final version includes only the introduction, summary, and recommendations). He
also said he was not directly responsible for inclusion of the verbatim text because
he hired a consultant (the consultantl 4) in India to put together the draft
manuscript. He said the consultant had initially prepared the text and included a
citation to the preprint in the footnotes, but he did not include any quotation marks.
Later, the Subject hired a student (the student15) to finalize the manuscript before
submission and it was the student who omitted the footnotes to the two articles.
The Committee carefully examined the consultant's original draft and noted there
were originally footnotes for three of the four passages, but no quotation marks or
indentation; in the final version, not just the footnotes, but also a reference to the
author in the body was removed. The Subject acknowledged reading the preprint,
but 'he said he did not recognize the verbatim text when he saw it in his paper, so
did not think to ask his student why that text was not cited. The Coiumittee noted
the. Subject has extensive editorial experience.1 6 such that one would have expected
him to have a system to review others' work to ensure all references ·were properly
cited, but he had no such system. In consideration of these factors, the Committee
                                   '                                 ,.

   12   Id.
   13  Jd.
   14 [redacted] was a consultant in [redacted] India.
   1 5 [redacted]was a graduate student at [redacted].

   16 Senior Editor, [redacted]; and Associate Editor, [redacted].




                                                                                    3
                              n                                                     n
                                                 Confidential


concluded that th~ plagiarism was committed recklessly by the Subject as Principal
Investigator on the grant arid co-autho~ 'of the report. ·. .               '
                                                                 ;'


       Although the Committee used plagiarism detection software to examine the
article at issue, it did not examine any ofth~ Subject's other~ writings, e.g., papers or
proposals, for evidence of a pattern of plagiarism.
      In summary, the Committee concluded that plagiarism occurred and the
Subject departed significantly ·from accepted practice of the relevant research
community; the misconduct was committed at least recklessly; and the allegation
was proven by a preponderance of the evidence. The Committee made no
recommendations to the University adjudica.tor.

                                                         (
                                     The Subject's Responsei7
       The Subject cooperated with the Univ~rsity in itsinvestigation, and, as noted
above, argued that he relied on a consultant .and a stud~nt to write the material and
did.not .carefully review their work. He said his final version, which is only several
             .                               •       f                '   '   ·'·


sections, does not contain plagiarism and the removal of that material does not
affect the conclusio:O:s .of his. report. .           .

                                                 '           )

                                            Adjudication
      The University adjudicator accepted the Committee's report a:J;ld concurred
with the Committee's conclusion that the facts indicate plagiarismoccurrea.Is He:
                 •   delayed the Subject's Chaired professorship, scheduled
                                                                                            'i
                     appointment for the 2010-2011 academic year, at least
                     until1 September 2012; and
                 •   denied the Subject his summer salary· at: least until
                     summer 2013.


                                        OIG's Assessment                                )
       OIG assessed the University's report for accuracy and completeness, and
while the report was accurate in its findings, it was incomplete. The University did
not use its plagiarism software to look for ,evidence of a pattern.· However, we
conclude the University followed reasonable 'procedures in conducting its
investigation and produced a quality report and attachments. Therefore, we
adopted the findings in lieu of conducting our own investigation. However, we re-
examined the paper and the proposal. supporting this paper looking for a pattern of
plagiarism.


   17   Tab 2, Attachment 7.
   18   Tab 3; [redacted], Executive Vice-President and Provost.


                                                                                                 4
                                               Confidential


       We did not identify plagiarism in the proposal, but we found an additional.58
lines of material copied from 5 sources in the Subject's paper the University did not
previously identify. We asked the Subject about the a1legation19 and in his
response, 20 the Subject admitted there was plagiarized material in the article, but,
as he explai.ned to the University, the plagiarism was the work of a consultant hired
for the project. He claimed neither he nor his co-PI knew the consultant !had
inserted several paragraphs from published sources without properly citing the
work. He also stated none of the plagiarized material was present in any part of the
detailed .report written by himself or the co-PI~. He conc~uded by offerjng apologies
for the errors and wrote: ·                                                 ,
          I am hoping you will see my failure to detect the consultant's omissions
          as being honest and a one-time random occurrence due to a unique
          combination of circumstances.21
       We agree that this appears to~ be              a
                                               one-time occurrence, but it was not
random. As noted by the Committee, the Subject i's an experienced scientist and
editor and is aware of the standards of scholarly writing. Thus, ·while the Subject
might not have known a priori the consultant plagiar~zed, the reason he did not
know was that he failed to implement a system Of review that would permit hi:in to
                                                                                 1
exercise reasonable responsibility in his oversight Qf his consultant's an& stude nt's
work. The plagiarism that resulted was not random, but an obvious byproduct of
the Subject's poor scholarly practices. The ,Subject's explanation that the author's
email only required him to cite data, rather than text, is specious. Independently of
whether he was asked to cite,the materialproperly,•he had a responsibility to do so
and did not meet that responsibility. Similarly, the Subject's ·excuse that the
plagiarized materiaf was not important to his paper is unacceptable because if the
                                                               .
material were unimportant, .the Subject would not have included it.     ·


       A finding of research misconduct by NSF requires (1) there be a significant
departure from accepted practices of the relevant research community, (2) the
research misconduct be committed intentionally, or knowingly, or recklessly, and (3)
the allegation be proved by a preponderance of the evidence. 22

                                                                     •.
                                                The Act
   The Subject's paper contained a total of approximately 161 lines plagiarized
from 13 sources into one article that cited support from the Subject's 'NSF grant and
was prepared for NSF. OIG concurs with the University that the Subject's actions·
constitute plagiarism· as defined by NSF. In offering material composed by others

   19   Tab 4: NSF OIG 5 October 2010, letter to [redacted].
   2o Tab 5: [redacted] response to NSF OIG.
   21   Tao 5, p. 2.
   22   45 C.F.R. §689.2(c).


                                                                                     5
                                              Confidential


     as his own, the Subject misrepresented his own efforts and writings. Likewise, the
     University found the Subject's acts constituted a significant departure from
     accepted his relevant research community, and we concur.


                                               · Intent
           The University concluded the Subject acted recklessly in plagiarizing
     material in the article. In both the Committee's and our analysis, we determined
     that the Subject's level of intent rose above the level of "careless." Therefore, we
     concur with the University, and conclude the Subject's actions were reckless.


                                           Standard o{Proo{
           Both the University and OIG conclude that the Subject's actions and intent
     were proven based on a preponderance of the evidence standard.
            We conclude the Subject, by a preponderance of the evidence standard,
1
      recklessly plagiarized, and the plagiarism was a significant departure from accepted
    , scholarly standards; therefore the Subject committed research misconduct.23


                                    OIG's Recommended Disposition
          When deciding what appropriate action to take upon a finding of misconduct,
     NSF must consider:
              (1) How' serious the misconduct was; (2) The degree to which the
              misconduct was knowing, intentional, or reckless; (3) Whether it was
              an isolated event or part,of a pattern; (4) Whether it had a significant
              impact on the research record, research Subjects, other researchers,
              institutions or the public welfare; and (5) Other relevant
              circumstances. 24


                                             Seriousness
             The Subject's actions are a violation of the standards of schol<~.rship and the
      tenets of general research ethics. Copied text serves to misrepresent one's body of
    rknowledge, presenting readers with an inaccurate representation of a docl!ment's
    · respective merit. Adding to the seriousness, the document was prepared for, and
      provided to, NSF presumably as a basis for consideration of future programmatic
      decisions and to serve the community, and. the documep.t was made publicly
      available through the association's web site.


        2a 45 C.F.R part 689.
        24   45 C.F.R § 689.3(b).


                                                                                          6



                                                                                               /
                                     Confidential


       As part of his mentorship responsibili~ies as a Professor, the Subject,should
have reviewed the work of a student, who is only learning the standards of his
profession, and who was editing the. work oC a non-native English writing
consultant. The extent of the copying and the Subject's demonstrated failure to
properly mentor his student, including monitoring, reviewing, and verifying the
citations in the manuscript submitted under his own name, raises the seriousness
ofthis act.


                                  Degree of Intent·
       As noted by the University, the Subject's paper contained 'several significant
passages identical to passages in a preprint he received directly from the author
who told the Subject he was going to use the .material for a book and requested
acknowledgment if it was used. The Subject acknowledged reading the preprint,
but said he did not recognize the text when he saw 1t in the fi:J;lai version of the
paper. Although a consultant incorporated the text into' the Subject's paper, the
Subject did not have a system in place to provide a citation check of the manuscript
before it was submitted. This would be particularly important with regard to an
article the Subject knew was based, in part, on preprints from an author who asked
to be acknowledged. The Subject has significant editorial experience, and he should
have had such a system in place.




      The Committee did not examine any of the S~bject's other work for evidence
of a pattern. We reviewed the. proposal that supported. this paper and found no
evidence to support a pattern of plagiarism. ,




                                                                                   7
!..\ ~        ;--~; c;/
    -·
     '"'···               ~
                                                                            Confidential




                                                                      Recommendation
                              Based on the evidence, OIG recommends NSF:
                                        •   Send a letter of reprimand to the Subject informing him that NSF has
                                            made a finding of research tnisconduct;25
                                        •   Require the Subject to complete an ethics course, which includes
                                            discussion on citation practices, within 1 year and provide certification
                                            of its completion to      O~G;26   and
                                        •   Require, for 1 year after NSF's final action, the Subject provide
                                            certifications to OIG that all submissions in connection with his NSF
                                            research are his own writing or are appropriately cited. 27




                                25 This is a Group I Action §689.3(a)(I)(i).
                                26 This is similar to a Group I Action §689.3(a)(I)(ii).
                                27 This is similar to a Group I Action §689.3(a)(I)(iii).




                                                                                                                   8
